1919 Pennsylvania Avenue NW
Suite 800
Washington, DC 20006-3401
Robert Corn-Revere
202.973.4225 tel
202.973.4499 fax
bobcornrevere@dwt.com

April 1, 2020
Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20002
Re:

Barr v. American Association of Political Consultants, No. 19-631

Dear Mr. Harris:
As required by Supreme Court Rule 33.1(g), I hereby certify that the brief of Amicus
Curiae Cato Institute, in the case referenced above, contains 4,494 words, excluding
the parts of the brief that are exempted pursuant to Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Sincerely,

Robert Corn-Revere

